                    November 23, 1999

                    DEAN R. RODMAN
                    MANAGER, ACCOUNTING SERVICE CENTER

                    SUBJECT:	 Back Pay Awards
                              Report FR-FA-00-002

                    This report presents an interim finding identified during our
                    audit of the United States Postal Service Financial
                    Statements for fiscal year (FY) 1999, Eagan Accounting
                    Service Center (Project No. 99PA009FR002).

Results in Brief	   The Eagan Accounting Service Center disbursed back pay
                    awards that frequently contained errors. Our review
                    disclosed 17 of the 24 randomly selected back pay awards
                    contained 58 errors totaling $43,795. These errors occurred
                    because:

                    ♦ User-friendly guidelines and procedures were not
                      established for processing back pay awards.
                    ♦ Payroll personnel performed incorrect calculations.
                    ♦ The awards were not reviewed prior to disbursement.
                    ♦ Payroll personnel were not aware of the requirement to
                      deduct union dues.

                    Incorrectly processing back pay awards results in increased
                    costs associated with overpayments, processing
                    adjustments to correct back pay errors, and increased
                    workload to resolve contested back pay discrepancies.

Background 	        By administrative order, current or former employees, who
                    were unjustly terminated, are entitled to receive back pay for
                    the period during which the unwarranted personnel action
                    was in effect. The Employee and Labor Relations Manual,
                    section 436, requires field units to provide hours
                    certification, salary progression, and documentation
                    supporting outside earnings for employees that were
                    dismissed improperly. The Eagan Accounting Service
Back Pay Awards                                                                                                          FR-FA-00-002



                                Center uses this information to calculate the amount of back
                                pay, payroll deductions, and leave restoration as required
                                by Payroll Processing Handbook F-24, section 471. Payroll
                                personnel are provided initial training and supplied with
                                numerous documents including instructions, directives,
                                examples, etc. They rely on this reference material for
                                guidance to process back pay awards.

                                The Payroll Processing Branch experienced a significant
                                increase in the number of back-pay awards processed in
                                the last several years. The number of back-pay awards
                                (greater than $35,000) increased 331 percent from 65
                                ($4.2 million) in FY 1995, to 280 ($16.6 million) in FY 1999,
                                with the most dramatic increase experienced in the last two
                                years.

                                                                               B a c k P a y A w a r d V o lu m e
                                                                                   (G re a te r th a n $ 3 5 K )


                                                               300



                                                               250



                                                               200
                                             Back Pay Awards
                                 Number of




                                                               150



                                                               100



                                                                50



                                                                 0
                                                                        95       96             97           98     99

                                                                                        F is c a l Y e a r




                                The Eagan Accounting Service Center processed
                                approximately 2700 back pay awards (greater than $1500)1
                                in FY 1999; reflecting a 152 percent increase from the 1071
                                processed in FY 1994.




1
  Back pay awards are not separately coded in the Adjustment Processing System and therefore, data to measure
the entire magnitude of back pay awards is not accessible. However, the Eagan ASC maintains a spreadsheet that
tracks all back pay awards greater than $1,500.



                                                                                2
                                                                     Restricted Information
Back Pay Awards                                                                                        FR-FA-00-002




Objective, Scope, and Our objective was to determine whether back pay awards
Methodology           were properly calculated and paid. We conducted this
                      portion of the audit from December 1998 through
                      August 1999 in accordance with generally accepted
                      government auditing standards and included tests of
                      internal controls as were considered necessary under the
                      circumstances. We discussed our conclusions and
                      observations with appropriate management officials and
                      included their comments, where appropriate.

Back Pay Awards                   The Eagan Accounting Service Center disbursed back pay
                                  awards that frequently contained errors. We randomly
                                  selected 30 back pay awards greater than $35,000 which
                                  consisted of 6 lump sum awards and 24 awards requiring
                                  detailed calculations. Our review disclosed 17 of the 24
                                  calculated back pay awards contained 58 errors totaling
                                  $43,795. Specifically:

                                  ♦ 14 back pay awards contained 30 monetary errors.
                                  ♦ 11 contained 23 leave restoration errors.
                                  ♦ 5 did not have union dues collected.

                                  These errors occurred because the Payroll Processing
                                  Branch performed incorrect calculations and did not review
                                  the awards prior to disbursement.2 In addition, reference
                                  material provided during initial training is not user-friendly.
                                  Specifically, the reference material is not indexed and
                                  structured to facilitate efficient and accurate processing of
                                  back pay awards. Also, Payroll personnel did not deduct
                                  union dues for awards settled through the Merit Systems
                                  Protection Board and the Equal Employment Opportunity
                                  Commission because they were not aware of the deduction
                                  requirements.

                                  These errors resulted in:

                                       ♦   Overpayments totaling $5146.
                                       ♦   Underpayments totaling $11,944.
                                       ♦   Under-restoration of 865 leave hours ($16,406).
                                       ♦   Over-restoration of 114 leave hours ($2812).
                                       ♦   Uncollected union dues of $7487.

2
  Four of the 58 errors originated in field offices. However, ASC payroll technicians did not follow developed
guidelines to identify and correct the back pay awards prior to disbursement.



                                                          3
                                               Restricted Information
Back Pay Awards 	                                                       FR-FA-00-002




                    Moreover, the Payroll Processing Branch experienced a
                    dramatic increase in the volume of back-pay awards. This
                    heightens the need for effective controls and procedures to
                    avoid costs associated with overpayments, processing
                    adjustments to correct back pay errors, and increased
                    workload to resolve contested back pay discrepancies.

Recommendations     We offer the following recommendations:

                    The manager, Eagan Accounting Service Center, should
                    require the Payroll Processing Branch to:

                    1. Correct the errors identified during the audit. We
                       provided the Payroll Processing Branch a list of all errors
                       identified during the audit.

                    2. Develop structured guidelines that detail the procedures
                       to compute back pay awards. We suggest incorporating
                       a checklist and provide referenced examples to facilitate
                       the computation of back pay awards.

                    3. Implement detailed supervisory review procedures prior
                       to disbursement of back pay awards.

                    4. Issue policy guidance to collect union dues from all
                       applicable awards settled through the Merit Systems
                       Protection Board and the Equal Employment Opportunity
                       Commission.

                    Please furnish a reply within 20 days describing the
                    corrective action planned or taken, including the timeframes,
                    on our recommendations. This finding will be included in a
                    consolidated report for the Eagan Accounting Service
                    Center at the conclusion of the FY 1999 financial statement
                    audit. The report will include your comments and any
                    planned corrective actions. If you have any questions,
                    please contact me at (703) 248-2207 or


                    John M. Seeba
                    Director, Financial Audit

                    cc: 	Jayne E. Schwarz
                         Kristine A. Wright



                                        4
                             Restricted Information
Back Pay Awards                                FR-FA-00-002



                  Richard Kingsbury
                  John R. Gunnels




                                 5
                      Restricted Information
